<html>
<title> - COASTAL AMERICA PROGRAM AND THE TRANSFER OF NOAA PROPERTY TO THE BOARD OF TRUSTEES OF CALIFORNIA STATE UNIVERSITY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
COASTAL AMERICA PROGRAM AND THE TRANSFER OF NOAA PROPERTY TO THE BOARD 
              OF TRUSTEES OF CALIFORNIA STATE UNIVERSITY

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            October 3, 2002

                               __________

                           Serial No. 107-156

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

82-116              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 3, 2002..................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     1
    Underwood, Hon. Robert A., a Delegate in Congress from Guam, 
      Prepared statement of......................................     4
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Connaughton, James L., Chairman, Council on Environmental 
      Quality....................................................     5
        Prepared statement of....................................     6
    Corrigan, Dr. Robert A., President, San Francisco State 
      University.................................................    18
        Prepared statement of....................................    20
    Gudes, Scott B., Deputy Under Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     9
        Prepared statement of....................................    11


 OVERSIGHT HEARING ON THE COASTAL AMERICA PROGRAM, AND ON THE TRANSFER 
   OF CERTAIN NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) 
  PROPERTY TO THE BOARD OF TRUSTEES OF THE CALIFORNIA STATE UNIVERSITY

                              ----------                              


                       Thursday, October 3, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
1334, Longworth House Office Building, Hon. Wayne T. Gilchrest 
[Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. I think Ms. Woolsey is on her way, so we 
will wait a couple minutes. We have a vote at 10:15 and 
probably will have a lot of extraneous votes.
    [recess.]
    Mr. Gilchrest. The hearing will come to order. I think what 
we may do is begin and we can listen a little bit to Ms. 
Woolsey here, and I can also listen to her on the floor and she 
can submit her statement for the record. But we are here to 
talk about how we can better promote Coastal America's 
interagency programs and coordinate all them so the impact from 
all this study--oh, there is Ms. Woolsey. That should look 
interesting in the record. We start off, oh, there is Ms. 
Woolsey. Why don't you come up because we are going to have a 
vote in 10 minutes. So give your testimony and we will move to 
Mr. Connaughton and then Mr. Gudes.
    But Lynn why don't you come up and we will start with you. 
There are two parts of the hearing, one is to protect 
agricultural land in California, as I understand. And the other 
is to develop a system, the intergovernmental agencies can work 
more efficiently to promote and protect and restore the 
Nation's coast lines.
    [The prepared statement of Mr. Gilchrest follows:]

  Statement of The Honorable Wayne T. Gilchrest, a Representative in 
                  Congress from the State of Maryland

    Today the Subcommittee is hearing testimony on proposed legislation 
to solve a funding glitch that has delayed administrative funding for 
Coastal America, and on H.R. 5498, a bill to transfer certain National 
Oceanic and Atmospheric Administration (NOAA) property to the 
University of California System.
    Coastal America promotes interagency cooperation on environmental 
restoration projects. Unfortunately, prohibitions on Federal agencies 
receiving and expending funds from other agencies without explicit 
statutory authority has threatened program operations this year. I 
understand that stopgap measures have been put in place to allow the 
program to continue, but I look forward to hearing from the 
Administration regarding a permanent solution. I also look forward to 
hearing how Coastal America will mesh with the Estuarine Habitat 
Restoration Council established under legislation that I introduced in 
the 106th Congress.
    Congresswoman Woolsey and Congressman Miller have introduced 
legislation to direct the Secretary of Commerce to transfer certain 
property now owned by NOAA to the University of California System. I 
look forward hearing from the bill's sponsor this morning as well as 
Dr. Corrigan and it is always good to hear from Scott Gudes.
                                 ______
                                 
    Mr. Gilchrest. Ms. Woolsey.

  STATEMENT OF THE HON. LYNN C. WOOLSEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you very much, Mr. Chairman, for letting 
me do this before we go vote, because we are going to be on the 
floor for a while.
    Mr. Gilchrest. Who is being disruptive this morning?
    Ms. Woolsey. Not me, Mr. Chairman. I am here. I am here 
begging you to do something I need. Thank you for giving me 
this opportunity. I am testifying in support of H.R. 5498, and 
it is my bill to convey the NOAA facility in Tiburon, 
California to the board of trustees of the California State 
University system. This facility is on property in my 
congressional district that NOAA has shared with San Francisco 
State since 1977.
    At that time, SFSU won approval to develop a field station 
and marine laboratory dedicated to the study of San Francisco 
Bay. The SFSU part of this property became the Romberg Tiburon 
Center for Environmental Studies. It is really beautiful. It is 
the off-campus marine and estuary research and teaching 
facility for the university. The coastline where the NOAA 
facility and the Romberg Center are situated are one of the 
largest and most urbanized estuaries in the United States, San 
Francisco Bay. Unfortunately as an ecosystem, the San Francisco 
Bay has suffered extensively from human development as you can 
imagine, because you know your own bay.
    I visited the Romberg Tiburon Center, and I have seen 
firsthand the excellent work that they do and the Center's 
research stands at the forefront of understanding how human 
development affects the ecosystem. Research, however, is not 
the main purpose of the Center. It is, first and foremost, an 
educational facility which is unique to this area in that it 
provides education for an urban student body about the issues 
of urban aquatic environments.
    Due to its success, the Romberg Center now faces 
significant problems because it is a rundown facility and it 
lacks space for a growing education and research program that 
is very, very popular in our area and nationwide actually.
    The facility that NOAA has vacated includes access to the 
waterfront, a boat ramp and dock, and this is crucial to the 
work of the Romberg Tiburon Center. My legislation codifies 
what has been a long time cooperative working arrangement 
between NOAA and the Tiburon Center that gives students and 
researchers direct access to the Bay. If San Francisco State 
University had to go through the usual channels to acquire the 
NOAA facility, it would take 3 to 5 years. So we are hoping 
that we can shorten that and that we would have a guarantee 
that SFSU could get the facility in the end and get it through 
this Committee with something you are going to do this 
afternoon, actually.
    The communities in my district that are closest to the 
Center, Tiburon and Belvedere, very much want the Romberg 
Tiburon Center to acquire the NOAA facility, and they strongly 
support my legislation. The Romberg Tiburon Center has been a 
good neighbor to these and other nearby Marin County 
communities and they are unanimous in their desire to make sure 
that the educational and research use of the property is 
continued. Dr. Robert Corrigan, President of San Francisco 
State University, will be on your next panel and he will tell 
you a lot more about the project than I am today. Again, I 
thank you for hearing me and for the opportunity to speak and I 
hope for your support in this regard.
    Mr. Gilchrest. Thank you very much, Ms. Woolsey.
    [The prepared statement of Ms. Woolsey follows:]

Statement of Lynn Woolsey, a Representative in Congress from the State 
                             of California

    Thank you for giving me this opportunity to testify in support of 
H.R. 5498, my bill to convey the NOAA facility in Tiburon, California 
to the Board of Trustees of California State University.
    This NOAA facility is on property in my congressional district that 
NOAA has shared with San Francisco State University since 1977. At that 
time, SFSU was given approval to develop a field station and marine 
laboratory on the property, dedicated to the study of the San Francisco 
Bay.
    The SFSU part of this property became the ``Romberg Tiburon Center 
for Environmental Studies'', the off-campus marine and estuarine 
research and teaching facility for SFSU.
    The coastline where the NOAA facility and the Romberg Tiburon 
Center are situated is one of the largest and most urbanized estuaries 
in the United States - San Francisco Bay. Unfortunately, as an eco-
system, the San Francisco Bay has suffered extensively from human 
development.
    I've visited the Romberg Tiburon Center and have seen first-hand 
their excellent work.
    The Romberg Tiburon Center's research stands at the forefront of 
understanding on how human development affects an eco-system.
    Research, however, is not the main purpose of the Romberg Tiburon 
Center. It is, first and foremost, an educational facility which is 
unique to this area, providing education for an urban student body 
about the issues of urban aquatic environments.
    Due to its success, the Romberg Tiburon Center now faces 
significant problems due to run down facilities and lack of space for a 
growing education and research program.
    The facility that NOAA has vacated includes access to the 
waterfront, a boat ramp and dock, which is crucial to the work of the 
Romberg Tiburon Center.
    My legislation codifies what has been a long-time cooperative 
working arrangement between NOAA and the Romberg Tiburon Center that 
gives students and researchers direct access to the bay.
    If San Francisco State University had to go through the usual 
channels to acquire this facility, it would take from three to five 
years to complete the process and there would still be no guarantee 
that SFSU would get the facility in the end.
    The communities in my district that are closest to the Center, 
Tiburon and Belvedere, very much want the Romberg Tiburon Center to 
acquire the NOAA facility and they strongly support my legislation. The 
Romberg Tiburon Center has been a good neighbor to these and other 
nearby Marin county communities and they are unanimous in their desire 
to continue the educational and research use of this property.
    Dr. Robert Corrigan, President of San Francisco State University, 
on the next panel, will discuss more about the need for this 
legislation.
    Again, I want to thank you for this opportunity to speak and I am, 
of course, happy to answer any questions you might have.
                                 ______
                                 
    Mr. Gilchrest. I think that is an excellent idea. Sets a 
precedent and example that can be done in other parts of the 
country, including the Chesapeake Bay, where there are some 
facilities that are in a transition period.
    So we wish you all the best and I think we may mark that up 
this afternoon with the full Committee. Thank you for your 
interest.
    Mr. Underwood?
    Mr. Underwood. Of course, it is excellent legislation 
because it comes from our friend, Lynn Woolsey. But more 
importantly, for all the reasons you have outlined, it is 
important and certainly we appreciate the speed with which we 
are taking this legislation, and I have a statement to enter in 
the record in support as well.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    [The prepared statement of Mr. Underwood follows:]

  Statement of Hon. Robert Underwood, a Delegate to Congress from Guam

    Thank you, Mr. Chairman. Let me begin first by saying how pleased I 
am to be able to join you at this morning's hearing.
    Allow me also to welcome our colleague, Congresswoman Lynn Woolsey. 
On behalf of Congresswoman Woolsey, let me say that I appreciate that 
you have chosen to expedite the committee's consideration of her bill, 
H.R. 5498.
    Congresswoman Woolsey has worked tirelessly in preparing this 
legislation to convey the former National Marine Fisheries Service 
property in Tiburon, California to San Francisco State University, and 
I look forward to hearing her views.
    Frankly, I was surprised to read in Dr. Corrigan's written 
statement that the Romberg Tiburon Center is the only academic research 
facility located on San Francisco Bay. Also impressive is the 
sophisticated level of marine and estuarine research supported by the 
Center. It would appear that the Center's national and international 
recognition as a major center for scientific research is well-deserved. 
It's future appears equally bright and ambitious.
    But aside from the significant benefits of enhancing the 
capabilities of this acclaimed research institution to support 
environmental research and restoration activities in San Francisco Bay, 
we should not overlook the fact that the Tiburon site has been in 
public ownership for nearly a century. For virtually that entire span, 
the Tiburon site has supported a wide array of water-dependent 
activities such as commercial fishing, naval operations, scientific and 
applied research, and marine-related education and public outreach.
    In my view, the conveyance proposed in HR 5498 makes eminent good 
most sense. This legislation offers a win-win situation for San 
Francisco State University and for NOAA who will still have open access 
to the property and use of one building for equipment storage.
    Furthermore, all questions of title and liability are settled, and 
any private property ``takings'' concern is irrelevant. Moreover, this 
conveyance is vastly superior to the alternative scenario of the 
General Services Administration's excess property process.
    Mr. Chairman, I support HR 5498, and even though little time 
remains this Congress, I hope to be able to work collaboratively with 
you and with Congresswoman Woolsey to find a way to move this 
legislation to a successful conclusion before the Congress adjourns 
this year. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Anything further, Ms. Woolsey?
    Ms. Woolsey. I just think if we could do it this afternoon, 
it would make a big difference to San Francisco State 
University and to the community that I represent.
    Mr. Gilchrest. Thank you. I don't think that will be a 
problem. We will do our best and look forward to the success of 
this venture to help educate young urban people about the 
importance of people living in harmony with nature's bounty.
    Ms. Woolsey. Thank you very much. And Mr. Chairman, I would 
ask you to come out and visit the Center.
    Mr. Gilchrest. I would very much like to. I think what we 
will do now since we have a vote underway, we will take a short 
recess because I guess I can be back here in less than 10 
minutes and I will know better what the vote schedule is. We 
will take a short recess and I will be right back.
    [recess.]
    Mr. Gilchrest. Hearing will come to order. Thank you for 
your patience once again.
    And Mr. Connaughton you may begin sir.

   STATEMENT OF HON. JAMES CONNAUGHTON, CHAIRMAN, COUNCIL ON 
                     ENVIRONMENTAL QUALITY

    Mr. Connaughton. I think I need to begin expressing my 
pleasure to be here, in particular as a Baltimore boy and as an 
avid sailor and an avid beachcomber. I envy you your district. 
It is one of the finest places up and down the eastern 
seaboard, and it must be great to be representing that area.
    Mr. Gilchrest. It is a splendid challenge.
    Mr. Connaughton. I can imagine. I am also pleased to be 
here with Scott Gudes from NOAA, who has certainly been a great 
participant and enthusiastic supporter of Coastal America's 
effort with its counterparts at NOAA. It was just a year ago 
that I convened the first meeting of the Coastal America 
principles under President Bush's administration.
    And shortly thereafter, we were celebrating the 10th 
anniversary of the Coastal America's program. It was a program 
that was conceived by a handful of individuals 10 years ago, 
now 11 years ago, and has survived in its sort of wonderful 
coordinating form and produced great results in a remarkably 
efficient way. So it is a real jewel. And its longevity is a 
testament to its success and the level of interest across the 
administration to sustaining the program.
    I was particularly impressed by the high level commitment, 
not just to the Federal level of this program, but more 
importantly, the regional level to this program as providing 
the glue to coordinated actions and the glue to providing 
innovative solutions to challenging coastal problems.
    Last fall, I had the good pleasure of presenting some 
partnership awards to the Maine Coastal Wetlands Restoration 
Team, which consists of government officials and the Maine 
Corporate Wetlands Restoration Partnership, which is the 
nongovernmental side, and again to be in that setting--I have 
done several since--and see the remarkable collaboration and 
sort of results-oriented kind of conversations that produces 
these results against the kind of thing we need to be 
replicating over and over and over again are these teams of 
local interested parties coming together and owning the 
outcome.
    And that was a prime example. That team had restored 300 
acres of wetlands at 11 sites. And I personally helped them 
break ground at their next project site, which was the 
Scarborough Marsh. The corporate wetlands restoration component 
of that was really quite consequential as well and they were, 
you know, were there as a real partner in getting the job done 
and again banking the results.
    If you take the public side and you add the nonpublic side, 
there are currently 104 companies and 54 nongovernmental 
organizations who participate in the Coastal America program. 
So it is a program that is readily accessible. And with those 
kinds of numbers of participation, again, it is a real example 
of the kind of glue or magnetism that these results or 
partnerships can produce. This Subcommittee had asked how 
Coastal America's activities would be coordinated with similar 
activities undertaken pursuant to the estuary restoration act 
of 2000 which I know Mr. Chairman you were strongly a key 
player in.
    Obviously, as you know, the process of deciding the 
restoration of environmental activities is not complete through 
the Estuary Habitat Restoration Council. But certainly we are 
looking at the extent to which the Coastal America's framework 
can be a useful tool to help accomplish the objectives of the 
Act. There are many tools across government, but this is one 
that can be an important contributor.
    Second the Subcommittee asked how many acres have been 
restored by Coastal America's projects and what the costs of 
such restoration has been. First, as you are aware, Mr. 
Chairman, Coastal America is a tool that facilitates the work 
of numerous agencies. So it draws upon their statutory 
authorities and their budgets and helps link them together to 
produce a collective and coordinated action. It has been 
difficult to roll it all up into one number, but I can give you 
a flavor for the performance metrics. First more than 600 
projects have been initiated.
    The size of the projects range from 1 to 60,000 acres. 50 
projects alone produced 80,000 acres of coastal wetlands, 
restored and protected; 42 dam removals, 29 of which have 
opened over 3,000 miles of river. The cost of running the 
Coastal America's coordination effort has been between 200- and 
$300,000. It is really cheap for the coordination function that 
is provided. And then, of course, the agency budgets, we are 
talking about harnessing over $100 million of agency budget 
that is through their appropriated programs.
    Finally, the Subcommittee had asked how CEQ resolved the 
fiscal year 2002 interagency funding problem. We resolved it 
with the lawyers getting together and lining up the CEQ 
management fund process to conform with the law to enable us to 
receive the money to allow NOAA to administer it. I just--I can 
tell you today we settled that. The funds are getting into the 
program and we look forward to the next 10 years at Coastal 
America.
    Mr. Gilchrest. Thank you very much. Right on the mark.
    [The prepared statement of Mr. Connaughton follows:]

 Statement of James L. Connaughton, Chairman, Council on Environmental 
                                Quality

    Mr. Chairman, Mr. Underwood and Members of the Subcommittee:
    I am Jim Connaughton, Chairman of the Council on Environmental 
Quality. I am also Chairman of the Coastal America Principals Group, 
the governance body for the Coastal America Partnership.
    I appreciate the opportunity to appear before the Subcommittee 
today to discuss Coastal America. Coastal America can provide useful 
insights for the Subcommittee as it contemplates how to increase the 
effectiveness of programs that involve multiple agencies. I am pleased 
to share this panel with Mr. Scott Gudes from the National Oceanic and 
Atmospheric Administration.
    I have taken an active interest in the Coastal America Partnership 
during my tenure as Chairman of the Council on Environmental Quality 
and the Coastal America Principals Group. Last December, I had the 
opportunity to present partnership awards to the Maine Coastal Wetlands 
Team and the Maine Corporate Wetlands Restoration Partnership (CWRP) 
which had restored 300 acres of wetlands at 11 sites, and I personally 
helped them break the ground at their next project site, Scarborough 
Marsh. Last May, I had the opportunity to participate in a fish release 
ceremony celebrating the completion of a series of fishways on the 
Cooper River which flows through Camden New Jersey. I have seen how 
Coastal America partners combine their resources, expertise and 
authorities. For example, one of the most valuable military 
contributions to the partnership has been the use of military training 
exercises to accomplish environmental restoration objectives.
    Last week, Coastal America presented an award to an Army Reserve 
unit that removed a dam in Plymouth, Massachusetts, thereby restoring 
anadromous fish spawning habitat while receiving important mission-
critical training experience.
    Coastal America began in 1992 as key executive branch officials 
decided how best to implement President Bush's wetlands policies. The 
core responsible agencies--NOAA, EPA, Corps of Engineers, and Fish and 
Wildlife Service--recognized the need for a coordinating mechanism 
among Federal agencies working on wetlands issues.
    Ten years later, Coastal America has established a successful track 
record and is distinguished by:
    <bullet> National MOU with shared goals and objectives
    <bullet> Nine Regional teams supported by a national structure
    <bullet> Flexible regional approach to meet local needs
    <bullet> Effective leveraging of resources
    <bullet> Combined existing program authorities
    <bullet> Inclusive process (Federal/State/local/Tribal/private)
    <bullet> Voluntary involvement
    <bullet> Action focus with on-the-ground projects
    <bullet> Well-established awards program
    <bullet> Coastal Ecosystem Learning Centers network
    <bullet> Corporate Wetlands Restoration Partnership
    The Administration is emphasizing five basic themes in carrying out 
our environmental management responsibilities:
    1. Stewardship--ensuring that responsibility of caring for the 
resources is vested in those interests that are close to the resources
    2. Innovation--identifying new management and regulatory solutions 
to existing environmental challenges
    3. Science-based decision-making--ensuring that policy and 
management decisions are based on the best available science
    4. Federalism--focus on partnerships and collaboration with State 
and local interests
    5. Compliance--assuring that environmental compliance is 
integrated into decisions
    The Coastal America track record establishes it as a model for 
success on each of these themes.
    This Administration has focused on fish, wetlands, water and 
watersheds. Fish protection is a difficult interagency policy issue and 
an Administration priority. Wetlands are vital to preserving and 
enhancing water quality and wetland ecosystem restoration and 
protection is also a priority for preserving wildlife habitat and 
support services. The Administration is also focusing on assessments of 
water and watersheds and we will continue to establish direction in 
this policy area over the next two years. Each of these goals should be 
addressed and managed comprehensively and that requires a multi-agency 
approach that transcends individual agency responsibilities. The 
Administration is looking for ways to replicate the success of Coastal 
America in a broader context to address these issues.
    These issues are complex and interrelated. Often, individual 
agencies are only authorized to take incremental approaches. But we 
think that in most cases, authorities and resources are sufficient, if 
they can be deployed more strategically.
    To be effective, collaborative strategies must integrate technical 
and managerial capabilities and resources of Federal partners with 
those of State, Tribal, local, and nongovernmental organizations to 
identify and solve specific local problems. These collaborative 
endeavors must be united by the principles of sustainable development. 
Further, effective natural resource management strategies must be 
developed within an ecosystem and watershed context.
    The following criteria for ensuring successful collaborative 
governance were developed by the Coastal America Principals in 2002. 
The criteria are applicable to any organized collaborative enterprise. 
To be successful, the collaborative arrangement:
    <bullet> Must allow and provide for individual missions of the 
different programs to be maintained in their entirety.
    <bullet> Must increase coordination among the programs.
    <bullet> Must increase efficiency (which is similar to, but 
different than, increased coordination).
    <bullet> Must provide for accountability (collectively and by 
agency) to be maintained, and expectations to be met.
    <bullet> Should be transparent and easily understood by the all 
stakeholders.
    <bullet> Should encourage a collaborative approach between 
Federal, State, Tribal and local entities.
    Coastal America exhibits these criteria as it operates through a 
local-regional-national structure that is composed of:
    <bullet> Principals Group--Assistant Secretaries of the partnering 
departments. Meet periodically to set policy direction for 
collaboration.
    <bullet> National Implementation Team--Larger group of senior 
managers from the partner agencies. Meet monthly to address policy 
conflicts and provide support to the Regional Teams.
    <bullet> Regional Implementation Teams--This is the core of 
Coastal America. Nine teams covering all domestic coastal areas, 
including the Upper Mississippi and Great Lakes. Comprised of senior 
regional officials of the partner agencies. As the primary operating 
units for interagency consultation and action, they identify regional 
issues, develop strategies, and select and prioritize projects. They 
are advocates for the projects with their headquarters counterparts. 
They communicate, build relationships, synthesize information and look 
for ways to break down barriers that could prevent collaboration.
    <bullet> Project Teams--Locally-based groups comprised of Federal, 
State, Tribal and local organizations. They are established as needed 
to implement projects. The Regional Implementation Teams spawn and 
support the project teams.
The Added Value
    Coastal America provides an established mechanism and process that 
allows the agencies to plan and act strategically and employ their 
resources and authorities in concert to achieve more effective results 
quicker. Participants in Coastal America enjoy the following benefits:
    <bullet> Ready mechanisms and processes for addressing complex 
ecological issues.
    <bullet> Quicker implementation of projects that cross 
jurisdictional lines.
    <bullet> Mechanism to focus national attention and encourage 
support for innovative solutions that may require removal of 
programmatic or regulatory barriers.
    <bullet> Mechanism for involving private sector in restoration and 
protection efforts (Corporate Wetlands Restoration Partnership).
    <bullet> Effective means for increasing public understanding of 
coastal processes, issues, and needs (Coastal Ecosystem Learning 
Centers).
    The Coastal America experience is unique and is an excellent model 
for effective collaboration within the Federal government. This 
partnership focuses complex and diverse interests on collaborative, 
comprehensive solutions to which several agencies may each contribute. 
It is the nature of collaborative efforts that each of the partners 
makes a contribution to the whole, thus providing for a more 
comprehensive solution.
    I would like to turn now to the questions posed by the Subcommittee 
in my invitation letter. First, you asked how Coastal America's 
environmental restoration activities would be coordinated with 
activities of the Estuary Habitat Restoration Council, the estuary 
habitat restoration strategy and the estuary habitat projects 
authorized by the Estuary Restoration Act of 2000.
    The coordination mechanisms have not yet been fully developed, 
because there has not yet been funding for projects under the Estuary 
Restoration Act of 2000. The Administration is continuing to examine 
the options for implementing the Act, and I assure the Subcommittee 
that coordination will be considered.
    The Subcommittee asked how many acres have been restored by Coastal 
America projects since the program's inception and what the costs have 
been. We do not have a complete accounting of the cumulative acres 
restored or the dollars spent. Participating agencies report those 
accomplishments and expenditures for which they are responsible.
    Implicit in the development of such a shared system is the need to 
settle on common terms and definitions along with common performance 
measures. The Administration is now moving forward to develop common 
performance measures for work processes that are common to multiple 
federal agencies. OMB is providing leadership to the Executive Branch 
agencies through the budget process. In April of this year, OMB 
Director Mitch Daniels provided the first draft guidance for shared 
performance measures for wetlands. These have served to foster 
discussion among the participating agencies. We foresee the development 
of shared measures in the near future.
    Although I cannot report to you today a specific number of acres of 
wetlands that has been restored over the ten years that Coastal America 
has been in operation, I can apprise you that more than 600 separate 
projects have been initiated through Coastal America. These projects 
include wetland restoration, dam removal, species protection and 
pollution mitigation. These projects range in size from 1 to 60,000 
acres.
    As to cost, Coastal America is a program that operates with minimal 
funding from several Federal agencies. In Fiscal Year 2002, Coastal 
America's budget was $282,000. In Fiscal Year 2001, it was $192,000; in 
Fiscal Year 2000, it was $135,000. The recent increase represents the 
increased support being given to Coastal America by this 
Administration.
    Lastly, the Subcommittee asked how CEQ is resolving the fiscal year 
2002 interagency funding problems faced by Coastal America. The Council 
on Environmental Quality has statutory authority to receive payments 
from agencies to finance Federal interagency environmental projects and 
task forces, such as Coastal America. Because of issues regarding 
NOAA's authority to accept interagency financing for Coastal America, 
CEQ agreed to create a management fund pursuant to its statutory 
authority to finance Federal interagency environmental projects and 
task forces. However, CEQ did not want to issue a new charter for a 
Coastal America Task Force without having promulgated management fund 
regulations with amendments to allow continued administration of the 
Coastal America Program by NOAA. These regulations were mandated by 
statute in 1984 and had not been promulgated as of 2002. Thus, we 
worked with the Office of Management and Budget and the Office of 
Administration to (1) finalize the amended regulations; and (2) 
finalize the Coastal America management fund charter, in that order. We 
were successful, and I have adopted the amended regulations and 
executed a Coastal America management fund charter.
    As a result of this work, a Coastal America management fund has 
been created in full accord with the new regulations. We have a budget 
in place for Coastal America's immediate needs, and three agencies are 
in the process of transferring funds to this management fund for 
Coastal America.
    Thank-you for the opportunity to address the Subcommittee today.
                                 ______
                                 
    Mr. Gilchrest. Mr. Gudes.

STATEMENT OF SCOTT B. GUDES, DEPUTY UNDER SECRETARY FOR OCEANS 
       AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Gudes. Thank you, Mr. Chairman, Subcommittee members, 
Subcommittee staff, thank you for the opportunity to appear 
here today to testify on Coastal America and the transfer of 
the NOAA property at Tiburon, California to San Francisco 
State. As always, we appreciate your strong support for our 
programs and for all our environmental programs, estuary 
programs across the country.
    And actually, today is kind of significant. We are going to 
be leaving here to take part in estuary live, which is going to 
connect school kids across the country and talk about the 
importance of estuaries. And this weekend is National Estuaries 
Day. As Chairman Connaughton just said, the Coastal America 
partnership was established to protect, preserve and restore 
coastal watersheds by integrating Federal actions with State 
local and tribal governments and nongovernmental efforts. At 
NOAA, we are an enthusiastic partner in this program. We are 
one of 12 agencies. Coastal America is a very effective way--it 
is a mechanism and one of the ways that our agency has worked 
on restoring habitat, restoring fisheries, improving estuarian 
area.
    And in fact, Virginia Tippee, the executive director is a 
NOAA alumni. So we are pretty proud of that, and somebody who 
comes to the job all the time showing a lot of caring, 
dedication to the importance of our environment and estuarian 
areas and the importance of habitat restoration. In your letter 
to NOAA, you asked a few questions. Chairman Connaughton 
covered a few of those, but let me cover a few you asked. The 
first question concerns if we think additional statutory 
authority will be needed to accept and expend funds for Coastal 
America.
    My answer is that knowing the Department of Commerce have, 
in fact, been concerned regarding interagency financing issues 
for Coastal America since the partnership was set up back about 
1994. And that is because there is an annual appropriations 
provision--I think it is section 610 of the Treasury 
appropriations bill, and it is commonly called, I quote, the 
"anti-pass-the-hat provision." and it restricts Coastal 
America's ability to obtain contributions from partner 
agencies.
    It basically says you can't augment an appropriation by 
going to other agencies without specific authority, which is 
why you are considering this issue. So as a result of this 
restriction in fiscal year 2002, frankly, NOAA found itself 
unable to disburse distributions for Coastal America, and as a 
result, we worked with the Chairman and his staff, and they 
were very helpful in coming forward and having the Council on 
Environmental Quality manage the interagency contributions for 
Coastal America using the management fund authority. But I 
think, as the Chairman said, CEQ has noted and all of us feel 
at NOAA and the other agencies that we should continue to seek 
legislation that allows us to go back to the process where we 
would be able to go back and collect agency contributions and 
support them from NOAA. So that is the legislation before you.
    Your second question asked what authorities does NOAA use 
or enter into cooperative agreements and general contracts and 
grants. Could we use additional authorities? I would say that 
NOAA, because of its broad range of programs--it is 
interesting. We are probably so diverse eclectic agency, but we 
don't have any single authority that we use for entering into 
cooperative agreements, contracts, grants, to carry out our 
programs.
    For example, just take NOAA's national ocean service. We 
rely on the provisions of the Coastal Zone Management Act, the 
National Marine Sanctuaries Act, the Coast and Geodetic Survey 
Act, and several other acts to try to do business on a regular 
basis with our different partners.
    So each of NOAA's multiple authorities has its own 
requirements. Some authorities allow us to enter into 
agreements with other Federal agencies, while others allow a 
broad range of partners. These authorities also differ as to 
whether NOAA may transfer and receive funds from other parties 
for services. So we believe that clarifying and updating the 
agency's current authority to enter into cooperative 
agreements, contracts and grants and other arrangements will 
enable us to work more efficiently with private sector partners 
and to keep pace with evolving responsibilities.
    Your third and fourth question were about coordination 
between Coastal America and the activities authorized by the 
Estuary Habitat Restoration Act of 2000, the number of wetlands 
restored and the projects in which Chairman Connaughton just 
covered.
    I guess I would like to note, first of all, that I sit on 
the Estuary Habitat Restoration Council, and am fairly well 
versed in the activities that it has been following, and that 
these programs are particularly important to me that I have 
taken part in. In fact last week, I was doing an Oyster 
Restoration Project out at Kent Narrows at the Horse Head 
Environmental area.
    Coastal America is an important part of these programs. It 
is an important part of the number of tools and relationships, 
and I think it is something, as the Chairman said, that the 
Estuary Habitat Restoration Council will take a look at as a 
mechanism and the way of doing business. Regarding the 
Subcommittee's draft bill on Coastal America, NOAA generally 
supports the legislation obviously to accept and expend funds 
for other Federal agencies as I mentioned. There is a small 
technical change we proposed.
    And finally you asked about the Tiburon land conveyance and 
an opportunity to commit--to comment on representative 
Woolsey's draft legislation to authorize the transfer of the 
former NOAA lab at Tiburon. The Tiburon lab, I think as you 
know, has been used for some 40 years. And in 2000, we moved 
down the coast to the Santa Cruz site where we are co-located 
with the University of California at Santa Cruz.
    Some of this property was disposed in 1978 through the 
regular 49 Property Act disposal procedures. A minor portion of 
the property is still needed by NOAA as a storage facility for 
our fishery service. And we intend to work with the Committee 
staff to better understand the implications of the proposed 
transfer and ensure that Federal assets are put to their best 
needs in meeting the needs of NOAA and San Francisco State as 
this moves through the legislative process. And I agree with 
all the comments that the Congresswoman made before.
    So in conclusion, once again, we appreciate the opportunity 
to be here and we are very proud members of the Coastal America 
team.
    Mr. Gilchrest. Thank you, Mr. Gudes.
    [The prepared statement of Mr. Gudes follows:]

    Statement of Scott Gudes, Deputy under Secretary for Oceans and 
   Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

                            I. INTRODUCTION

    Thank you, Mr. Chairman and Members of the Subcommittee, for this 
opportunity to appear before you to testify on Coastal America and the 
transfer of National Oceanic and Atmospheric Administration (NOAA) 
property to the Board of Trustees of the California State University. I 
will speak first to the specific questions regarding Coastal America 
outlined in your letter of invitation to this hearing.
    As you know, the Coastal America Partnership was established to 
protect, preserve and restore our coastal watersheds by integrating 
Federal actions with State, local and tribal government and non-
governmental efforts to address specific problems with coastal 
resources. NOAA, located within the Department of Commerce, serves as 
one of the 12 Federal partners in the Coastal America Partnership. This 
Partnership formalized by a Memorandum of Understanding, includes other 
Federal environmental /resource agencies with coastal stewardship 
responsibilities (Environmental Protection Agency and Department of the 
Interior), infrastructure agencies (Departments of Agriculture, Energy, 
Transportation, and Housing and Urban Development), the Military (Army, 
Navy, Air Force), the State Department and the Executive Office of the 
President. Our participation in Coastal America is one of a number of 
mechanisms and partnerships in which we work to restore habitat and 
fisheries, and improve estuarine areas.
    Over the last decade, the Coastal America Partnership has 
implemented hundreds of projects including:
    <bullet> Wetland restoration using dredged material, to restore 
habitats to their natural conditions;
    <bullet> Anadromous fish restoration by removing derelict dams and 
installing fish ladders;
    <bullet> Endangered species protection such as a Right whale-
sighting alert system to eliminate ship strikes;
    <bullet> Erosion controls on river banks and dune areas; and,
    <bullet> Non-point source pollution control programs on farms to 
reduce nutrient runoff.
    Coastal America uses several mechanisms to encourage collaboration 
between the government, non-governmental organizations and the private 
sector.
    INTER-AGENCY PARTNERSHIPS: The Partnership strives to creatively 
combine the resources and expertise of the different partner agencies 
to accomplish shared objectives.
    COASTAL ECOSYSTEM LEARNING CENTERS: The learning center network was 
established to raise public awareness of, and increase public 
involvement in, coastal restoration and protection efforts. To date, 15 
marine education institutions and aquaria have been designated as 
Coastal Ecosystem Learning Centers of excellence. Through this network, 
the Partnership reaches 14 million people per year.
    CORPORATE WETLANDS RESTORATION PARTNERSHIP: To involve the private 
sector more effectively, Coastal America established the voluntary 
national corporate partnership in 1999. Through this program, 
corporations join forces with federal and state agencies to restore 
wetlands and other aquatic habitat.
    As part of my testimony today, I would like to submit to you a copy 
of the Coastal America report entitled ``A Decade of Commitment to 
Protecting, Preserving and Restoring America's Coastal Heritage.'' This 
report highlights many of the accomplishments of the Partnership since 
its inception. It is available online at www.coastalamerica.gov

       II. SPECIFIC COMMITTEE QUESTIONS REGARDING COASTAL AMERICA

    In your letter of invitation to Vice Admiral Conrad C. 
Lautenbacher, Jr. USN (Ret) the NOAA Administrator, you requested that 
NOAA address the following specific questions:
Why after 8 years of accepting and expending funds from other Federal 
        agencies for Coastal America activities has NOAA determined 
        that it now needs additional statutory authority to accept and 
        expend such funds?
    NOAA has been concerned regarding interagency financing issues for 
Coastal America since the Partnership was established in 1994. An 
annual appropriations provision that applies to all Federal agencies 
(currently Pub. L. 107-67, Sec. 610 (2001)) restricts Coastal America's 
ability to obtain contributions from partner agencies for Coastal 
America operations. Because of this restriction, NOAA was unable to 
obtain contributions for Coastal America activities from the partner 
agencies, even though those agencies indicated that fiscal year 2002 
funds were available for such contributions. As a result for fiscal 
year 2003, NOAA requested for the White House Council on Environmental 
Quality (CEQ) to manage interagency contributions for Coastal America 
using CEQ's Management Fund authority, which provides specific 
authority for interagency financing. However, CEQ has indicated that 
NOAA should continue to pursue legislation to allow NOAA to manage 
Coastal America operations on a permanent basis.
    The Coastal America program provides a model for interagency 
collaboration on environmental projects, and based on similar problems 
encountered by other NOAA programs, NOAA encourages the Subcommittee to 
consider the broader need for NOAA-wide authorities to facilitate the 
success of such collaborative efforts and initiatives.

What authorities does NOAA use to enter into cooperative agreements, 
        contracts and grants to carry out the agency's programs? Are 
        additional authorities necessary to effectively implement 
        programs other than Coastal America?
    NOAA, because of its broad range of programs, does not have one 
single authority for entering into cooperative agreements, contracts, 
and grants to carry out the agency's programs. For example, the 
programs represented by just one NOAA line office, the National Ocean 
Service (NOS), rely on various provisions of the Coastal Zone 
Management Act, the National Marine Sanctuaries Act, and the Coast and 
Geodetic Survey Act, along with other statutes. In addition, NOS also 
uses the Economy Act and the Department of Commerce's authorities for 
joint projects and special studies.
    Each of these authorities has its own special requirements. Some 
authorities allow NOAA to only enter into agreements with other Federal 
agencies while others allow NOAA to enter into agreements with Federal 
and State agencies. Other statutes allow a broad range of possible 
partners. These authorities also differ as to whether NOAA may transfer 
funds to the other party for services received or receive funds for 
services NOAA provides to the other party. Some are silent on the 
ability to transfer funds and therefore are interpreted to mean that 
only general collaborative agreements without funding requirements are 
permitted. Despite NOAA's many different programmatic authorities, 
there are from time to time projects within NOAA's mission that might 
not fit easily into the existing authorities for the purpose of 
transferring funds. This broad choice of authorities has led to some 
administrative problems and confusion within program offices.
    You have asked if additional authorities are necessary to 
effectively implement programs other than Coastal America. NOAA 
believes that clarifying and updating NOAA's current authority to enter 
into cooperative agreements, contracts, grants, resource-sharing 
agreements, and joint and cooperative institutes with a single NOAA-
wide authority for these purposes will enable NOAA to work efficiently 
with public and private partners and to keep pace with its evolving 
responsibilities.

How will Coastal America's environmental restoration activities be 
        coordinated with the activities of the Estuary Habitat 
        Restoration Council, the estuary habitat restoration strategy, 
        and the estuary habitat projects authorized by the Estuary 
        Habitat Restoration Act of 2000?
    A major goal of the Estuary Restoration Act is to promote 
coordination of restoration activities among Federal agencies and with 
the private sector. The Estuary Habitat Restoration Council (composed 
of the Army, NOAA, Fish and Wildlife Service, Department of 
Agriculture, and the Environmental Protection Agency) has developed a 
national strategy for restoration of estuarine habitat. This strategy 
provides a framework for improving ongoing restoration activities and 
for planning future restoration that will maximize benefits for 
estuarine habitat on a national scale. Coastal America and the Estuary 
Habitat Restoration Council will coordinate closely on implementing the 
Estuary Habitat Restoration Act. For example, estuary restoration 
projects recommended by the Estuary Habitat Restoration Council that 
are also approved by the Coastal America Regional Implementation Teams 
will be eligible to participate in the Corporate Wetlands Restoration 
Partnership, through which they can obtain non-federal match. Coastal 
America can also help to obtain military assistance for qualified 
projects, through the Innovative Readiness Training Program and other 
programs. In addition, Coastal America's Coastal Ecosystem Learning 
Centers can educate the public about the value of estuaries and the 
need to restore them.
    Most of the agencies that are members of the Estuary Habitat 
Restoration Council are also members of Coastal America. NOAA shares a 
common theme with Coastal America: apply a grass-roots approach to 
restoration by actively engaging communities in on-the-ground- 
restoration of fishery habitats around the nation. NOAA Fisheries'' 
Community-based Restoration Program (CRP), administered through the 
Restoration Center, actively supports NOAA's participation in Coastal 
America restoration activities. Additionally, NOAA staff from the 
Restoration Center and the National Ocean Service's Office of Response 
and Restoration, provide support for me, as the NOAA principal serving 
on the Estuary Habitat Restoration Council, as well as support for the 
estuary habitat restoration workgroup. This workgroup is responsible 
for overseeing the implementation of the Estuary Habitat Restoration 
Act of 2000. It was this workgroup that developed the restoration 
strategy as required by the Act. NOAA has provided substantial support 
for the Estuary Habitat Restoration Act as well as to Coastal America 
and its restoration activities. I anticipate that these strong ties 
between NOAA and Coastal America will continue, and I would recommend 
that we reinforce these interactions by providing specific 
opportunities for collaborative restoration projects, as defined in the 
estuary habitat restoration strategy, through NOAA's Restoration Center 
and the Office of Response and Restoration.

What are the cumulative number of acres restored by Coastal America 
        projects since the program's inception? How much money has been 
        spent on these projects and by which agencies?
    Through the Coastal America Partnership, over 600 projects have 
been carried out in 26 states, 2 territories, and the District of 
Columbia. The partnership process has restored thousands of acres of 
aquatic habitats and opened several thousands of miles of riverine 
habitat for spawning fish. One of the problems in trying to develop 
summary metrics nationwide is that each agency tabulates its own data 
for their programs, using their own individual methodologies. At NOAA, 
we are working on developing a database to track the progress of the 
restoration projects funded under the Estuary Habitat Restoration Act. 
The database will initially include projects funded by NOAA programs 
and will then be populated with projects funded by other agencies. We 
expect to have an initial version of the database by May 2003. This 
database will serve to document nation-wide success in restoring 
estuarine habitats.

Specific Comments on the Draft Bill for Coastal America
    In general, NOAA supports the provisions in this draft bill that 
would authorize the Secretary of Commerce to accept and expend funds 
from other Federal agencies to carry out activities of the Coastal 
America program along with authorizing appropriations for Coastal 
America administrative functions. NOAA offers one specific comment on 
this draft bill under Section 1(a) - Definitions. The term ``Coastal 
America activities'' refers to the Memorandum of Understanding (MOU) 
dated July 12, 1994. NOAA suggests that because the Coastal America 
partners are currently in the process of drafting a new MOU, this 
definition should include a reference in addition to the 1994 MOU that 
states, ``any amendments or replacements thereto.

                   III. NOAA TIBURON LAND CONVEYANCE

    NOAA appreciates the opportunity to comment on Representative 
Woolsey's draft legislation to authorize the transfer of the NOAA-owned 
Tiburon Laboratory in Tiburon, California to San Francisco State 
University. The Tiburon Lab has been used for research for nearly 40 
years, but the facility no longer meets current and future research 
needs for the agency. In 2000, the Tiburon facility was vacated upon 
completion of NOAA's new laboratory located down the coast with the 
University of California Santa Cruz, although a minor portion of the 
property is still needed as a storage facility for NMFS research 
activities, NOAA intends to work with the Committee staff to better 
understand the implications of the proposed transfer and ensure that 
Federal assets are put to their best use in meeting the needs of NOAA 
and SFSU as it moves through the legislative process.

                             IV. CONCLUSION

    Our Nation's coastal resources face a myriad of challenges such as 
habitat destruction, polluted runoff, and coastal hazards. Coastal 
America serves as a catalyst for interagency partnerships to address 
these challenges and mitigate their effects at the local, regional, and 
national level. The Coastal America Partnership is an excellent example 
of government and private sector collaboration and coordination, and 
one that could be reinforced by our Nation's leaders through this 
proposed legislation. NOAA appreciates the Subcommittee's interest in 
these issues and the opportunity to provide our thoughts on these 
pieces of draft legislation. We look forward to working with the 
Subcommittee as these bills are introduced.
                                 ______
                                 
    Mr. Gilchrest. Just a couple of quick questions. We then 
need to create some type of statutory authority that is 
clarifying existing language that causes some problems with 
making the connection between the funding as far as different 
agencies are concerned. So right now, you are operating on a 
very thin thread that is difficult to maneuver and you need 
clear, specific language to give you the authority to continue 
what you are doing now.
    Mr. Connaughton. The short answer is yes. And the 
President--we submitted legislation to do that and I know we 
have been talking with the Committee about how to do that. It 
is a very narrow, simple fix and it would resolve some of the 
machinations we have to go through to keep the program moving. 
We have the legal authority to do what we are doing, but it 
requires a lot of bureaucracy that takes away the resources 
from the program.
    Mr. Gilchrest. We would certainly like to do that because 
there are enough encumbrances along the way that make it 
difficult, not only between bureaucracy between different 
agencies, but the permitting process, the confusion that 
creates on the ground with the local government or local 
sponsors. So anything we can do to expedite that and make it 
more efficient to work cleanly, we will certainly help out with 
that part of the process.
    What I would like to ask very briefly is a regional 
district issue question that I have that, based on what you are 
talking about, as far as working with interagencies to restore 
estuary habitat. Much of the Delmarva Peninsula is estuary and 
very few, if any, rivers on the Delmarva Peninsula are real 
rivers. They are tidal basins and they go way up with that 
tidal. And there are a few dams out there that were probably 
useful in the 1940's or 1950's providing power for tomato 
plants et cetera, but those tomato plants are gone, the dams 
remain. They have a little lake where people can paddle around 
in.
    But I think the restoration of the original--if I could use 
that term ecosystem--would be beneficial. There is an ongoing 
process now that has just gotten started via USDA. The 
conservation title section G called the Delmarva Peninsula 
conservation corridor where we are working with the Department 
of Agriculture to create an agricultural corridor, but to 
create a forestry corridor based on the hydrology for wildlife. 
There are a number of little projects that Scott is familiar 
with as far as what NOAA is working on. And even the U.S. 
Geological is involved in some of that along with some local 
governments.
    So what I would like to do at a time in the not-too-distant 
future, either meet all of you--and Scott, there are some 
projects that NOAA is not involved in and that I would like you 
get involved with and the Corps of Engineers is involved. But 
based on USDA, U.S. Geological Survey, the Corps of Engineers, 
NOAA, a whole host of State and local people involved in the 
process, since we have this package called the conservation 
corridor for the Delmarva Peninsula, it seems these agencies 
could get together and coordinate their activities.
    Tomorrow the Corps of Engineers is visiting with me at one 
of these sites called Urieville Lake, which is a freshwater 
lake, but it is dammed and the title part is something called 
Morgan Creek. That if the dam wasn't there, it would come up 
and create a tidal marsh with a pretty nice habitat. And I 
would like to go over some of those things so we could get the 
local planning and zoning person and the designated 
environmental director for the county--and many counties have 
those positions now--to coordinate how these activities can be 
undertaken with a collaborative effort, not the least of which 
are funding problems for local governments. So I look forward 
to doing that.
    And Scott, the transfer, you know, I think is an excellent 
idea, and for the university to take part in that, we would 
like to expedite that as well. So if you have any comment on 
any of that.
    Mr. Connaughton. First of all, what you are talking about 
is very exiting and it is consistent with what we are working 
hard to do in the Bush administration--Coastal America helps to 
do this as well--to knit together related funding streams and 
related actors and look at an entire area that can be addressed 
and knit the sources together.
    So that sounds very exciting and to the extent that I can 
put some push behind that I would like to be able to do that. I 
appreciate you highlighting the conservation title of the farm 
bill. I think that was a signature--the largest greatest 
achievement of the Congress from the environmental side. And it 
is incentive-based, performance-based and private stewardship 
based. It has all the right elements, and we look forward to 
making this project an example of the success of that title.
    Mr. Gudes. Mr. Chairman, I would just say that the 
Chesapeake Bay is the largest estuary in the United States, and 
as I said before, for NOAA, this is sort of our backyard for 
our headquarters, and it has special meaning for us. Speaking 
on NOAA itself, we definitely would like to do everything we 
can to take part in the effort you mentioned on restoration. 
And as a member of Coastal America, I totally agree with Jim 
that that is what Coastal America is all about, to try to bring 
these different partners and different agencies, including the 
private sector.
    So I think in total, we could help do that. And then on the 
land transfer, I think it has a lot of important aspects. I 
would say that NOAA is not an independent agency, and I can't 
speak in total, but for NOAA, we don't have any opposition to 
the legislation that you are putting together, the proposed 
transfer, but I do think there are some issues that the agency 
or the administration ought to come back and ask about in terms 
of the specifics of the transfer.
    Mr. Gilchrest. Absolutely. Thank you very much. Gentleman 
from New Jersey.
    Mr. Saxton. First of all, I apologize for being late and if 
I ask a question that has already been discussed in detail, I 
apologize and you can just tell me that. One of the issues that 
I have been very interested in over the years, particularly 
since the Republicans took over the Congress--glad they did--
but one of the mistakes I think we made when we took over the 
Congress was to diffuse the responsibility for policymaking 
decisions in the Congress that has to do with coastal areas.
    We had a Merchant Marine and Fisheries Committee, and I was 
proud to be a member of it and it was a very active Committee 
and it dealt with coastal issues. When we took over, that 
policymaking activity was diffused to this Committee, to the 
Transportation Committee, to the Armed Services Committee, et 
cetera, which I thought was kind of a move in the wrong 
direction.
    I see this Coastal America initiative is apparently an 
effort to consolidate policy in the administration, 
policymaking decisions which are made by the administration 
into a coherent group, body that deals with coastal issues. So 
I guess we kind of go around in circles and I am wondering if 
you could talk about the Coastal America initiative and how you 
see it playing out and how you see it--what the advantages of 
it might be and the part that obviously you will play in it.
    Mr. Connaughton. Thank you, Congressman. Let me begin at 
the top which is the struggle from a policy development and 
execution standpoint how you organize your activities. Coastal 
America is an implementing tool of coordinated action with 
respect to specific projects. So it is--it is at the second 
level of action in response to specific needs. And what it 
does, and the advantage of this kind of tool is it works within 
the mission of each of the contributing Federal agencies, and 
then State and private sector.
    It works within the mission of the Corps of Engineers, the 
mission of the Army, the mission of NOAA, the mission of 
whatever the relevant agencies are with respect to the 
particular problem at hand and then draws from them their 
resources and their statutory mandates to execute a particular 
solution.
    So what is great about it is incredibly low cost and 
incredibly effective at going after very specific issues. So 
that is at the operational level. At the higher policy level, 
we recognize the issue you raised with respect to how Congress 
has organized itself, and obviously the Oceans Commission is 
underway right now looking at these institutional structural 
issues how we set and then execute policy with respect to ocean 
and coastal areas.
    At the Council on Environmental Quality in the White House, 
we have had a dedicated associate director to these issues so 
that we could look across the agencies and maintain sort of at 
least a direction that is coordinating these policies, and we 
are actually--we are changing--we are changing the portfolio of 
that spot a little bit by making it coastal, agricultural and 
public resources because we are recognizing with a lot of these 
estuary issues in particular, marrying up the agricultural 
interests with the estuary interests, with the public resources 
interests, that is a tighter portfolio and a better coordinated 
portfolio for us to keep pushing coordinated policy through the 
administration.
    We at the administration have to deal with the same kind of 
silos you are suggesting we have in Congress, with, you know, 
agencies with very specific missions, and they are all sharing 
the coastal process. I look forward to what the Oceans 
Commission has to say. I challenge them to be challenging but 
realistic about what we can do in further coordinating.
    One final note, we had an extensive conversation about 
these issues not just at the national level but the 
international level at the recent world summit on sustainable 
development. And it was well recognized that understanding our 
coastal and estuary issues in its more rudimentary economic 
terms and the terms--and the need for education--you know, 
looking at economic policy, educational policy and then--then 
sort of the policies relating to environment and natural 
resource protection--integrating those together is probably one 
of the most dramatic things we can do to advance--to make real 
progress on these very, very complicated issues. All too often 
they occur in their silos, and we would like to harness the 
strength of economic growth and harness the strength of good 
education to producing better outcomes.
    Mr. Gudes. A little bit of philosophical comment. I think 
speaking for my boss, Vice Admiral Conrad Lautenbacher, he is a 
big believer and this Committee is a big believer in general in 
mechanisms that bring different partners together who have like 
missions or doing like work on behalf of the American 
taxpayers. EPA has a national estuary program. We have a 
national estuary research reserve, for example Jacques Cousteau 
Reserve. Those two programs should be linked better together. I 
think all those things makes sense. I know that this 
Subcommittee has pushed forward the coordination role of the 
National Ocean Partnership Program.
    When we talked about ocean exploration a year ago, 2 years 
ago, I think one of the questions I got from the Subcommittee 
is OK, that is great, but how does this relate back to NSF's 
program, the Navy's program. I think those are the right 
questions. I think in the current budget environment which we 
will be in for quite sometime, those are absolutely the right 
questions. We have to look and make sure that there is not 
duplication and that we are really expedientially putting 
together a program so that it makes sense.
    I view Coastal America as one of those types of mechanisms 
that deals with an array of restoration efforts. So to go back 
to back to my example at the NERR site in New Jersey, it may be 
that the local community comes forward for community base 
restoration project. Coastal America might be a good mechanism 
to come in and see if the Corps of Engineers wants to 
participate in that or the Interior Department or one of their 
programs.
    So I think that these various mechanisms and Coastal 
America is a very good one are a way to really marshal the 
resources of different agencies and to have them work as one 
Federal Government, which you expect of us and your 
constituents expect of us.
    Mr. Saxton. Thank you.
    Mr. Gilchrest. Thank you Mr. Saxton. We have no further 
questions. We appreciate--this was short, but very excellent to 
coordinate of all what we need to do. We wish you well in your 
endeavors and we will talk further about this as we begin to 
develop clarifying language. Thank you very much. We have one 
more witness, Dr. Robert Corrigan, President of San Francisco 
State University.
    Mr. Saxton. [presiding.] Dr. Corrigan, the floor is yours. 
Thank you for being here. We appreciate it very much, and Mr. 
Gilchrest had a meeting on the Senate side that he had to run 
off to so I am it.

STATEMENT OF ROBERT A. CORRIGAN, PRESIDENT, SAN FRANCISCO STATE 
                           UNIVERSITY

    Mr. Corrigan. Mr. Chairman, I apologize for not being here 
earlier, but I was testifying on the cost of education in 
another Committee and could just get here. And I am sorry I 
wasn't here to hear Ms. Woolsey's comments, because I 
understand they were quite good. I do appreciate the 
opportunity to speak about the importance of this land 
conveyance to both the Romberg Tiburon Center and the San 
Francisco State University, and particularly want to thank Mrs. 
Woolsey and Mr. Miller for introducing this legislation on our 
behalf.
    As I think you are aware, the Romberg Tiburon Center is an 
off-campus marine laboratory that is operated by San Francisco 
state University on the shores of San Francisco Bay. It is the 
only academic research facility on the Bay which, as you are 
aware, is one of the largest and complicated estuarian 
environments. The center's research scientists train and mentor 
students. A number of them are low income and underrepresented 
students, and they conduct both basic and applied research 
dealing with such subjects as environmental adaptation, 
biological toxins and forces that threaten the globe's depleted 
fisheries, often collaborating with colleagues from around the 
world at the site itself.
    Their research has contributed significantly to the 
existing body of knowledge on estuary and environment. The 
Romberg Tiburon Center, for example, has created the first 
authoritative guide on wetland restoration and developed 
recommendations for oil spill cleanups that are now in use by 
the U.S. Coast Guard and other agencies throughout the country. 
They regularly publish in prestigious journals and texts, and 
currently all sources of Federal grants and State grants coming 
in to people working in association with Tiburon are numbered 
about $50 million in support last year.
    For the past 24 years, San Francisco State University and 
the National Marine Fisheries Service have worked together on 
this 34-acre site. The Romberg Tiburon site occupies 23 acres 
of the parcel, land that was conveyed to the university in 1978 
through a public benefit conveyance for use as an environmental 
research station. The National Marine Fisheries Service occupy 
the remaining 11 acres from 1970 until the last year when it 
was relocated. All of the parcels comprising this site are 
interlocked as the maps we have given to you show.
    So for the past 25 years, NOAA and the Romberg Tiburon 
Center have shared access to roads, to parking and to boat 
launch. After the National Marine Fisheries Service relocated, 
the Center applied for and in October 2001 received a leased 
permit from NOAA to use that property until the Federal excess 
property disposal process could be triggered.
    We provided you with the detailed history of the site, so 
let me summarize only very briefly. It was in private hands 
before 1904. It was purchased that year by the Navy for use as 
a ship coaling station, the first of many military in 
government uses. The Navy remained the owner until 1958 when 
the property was transferred to the Department of Commerce, and 
that began the environmental and marine oriented uses that come 
with the Romberg Tiburon Center.
    In the 1960's, the National Marines Fisheries Service 
occupied the site, consolidated its operations to 11 acres of 
the parcel in 1973. And in 1977 San Francisco State University 
submitted its proposal. In the following year, the Romberg 
Tiburon Center was established.
    I would like to emphasize, if I could, members of the 
Committee, how much the university has enjoyed and benefitted 
from our relationship with NOAA and with the National Marines 
Fisheries Services. Our organizations have operated with a 
shared purpose to improve the life of the San Francisco Bay 
through research and education. We have had an excellent 
experience in working together and we fully expect to continue 
our collaboration well into the future. This conveyance will 
support the mission of the Romberg Tiburon Center in many ways. 
The additional property will provide critically needed research 
and educational space, increasing opportunities for onsite 
training and research and collaborations with other agencies 
and organizations.
    And because the NMFS has been using its buildings for 
marine research, the Romberg Tiburon Center will be able to use 
these buildings in their current configuration. Another long-
term and very exciting commitment that the Romberg Tiburon 
Center is making to research on the Bay is the pending 
designation of the San Francisco Bay National Estuarian 
Research Reserve, NERR. The Romberg Tiburon Center will be the 
headquarters for this Federal-State partnership which will be 
administered by NOAA and involve eight different State and 
local agencies.
    This National Research Reserve will promote collaborative 
efforts on campus to restore degraded habitats, manage 
resources and increase public knowledge and good stewardship of 
these waters and will provide additional grant opportunities 
for our scientists. And NOAA is likely to designate the 
research reserve, I understand, in late 2002 or early 2003. Now 
the Federal Government, Chair, has been the sites' landlord 
since 1904. And to our knowledge there are no title disputes 
concerning the 11-acre NOAA parcels. Further, NOAA has drafted 
a preliminary surplus property report stating that there are no 
known major hazardous or toxic materials or waste sites on that 
property.
    Once again, I thank you, Mr. Chairman and members of the 
Subcommittee, for your consideration of legislation that will 
rightly enhance the activities of the Romberg Tiburon Center 
and turn the health of the San Francisco Bay and vital marine 
environmentalists worldwide to a higher rate, and I will be 
pleased to respond to any questions you may have.
    Mr. Saxton. Thank you.
    [The prepared statement of Mr. Corrigan follows:]

  Statement of Dr. Robert A. Corrigan, President, San Francisco State 
                               University

    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to speak with you today about the importance of the former 
National Marine Fisheries Service (NMFS) land conveyance to the 
California State University Board of Trustees on behalf of the Romberg 
Tiburon Center (RTC) and San Francisco State University. And thank you 
to Mrs. Woolsey and Mr. Miller for introducing this legislation on our 
behalf.
    The Romberg Tiburon Center is an off-campus marine laboratory 
operated by San Francisco State University (SFSU). It lies outside the 
town of Tiburon, California, on the shores of San Francisco Bay. It is 
the only academic research facility located on the Bay, which is one of 
the largest and most complex estuarine environments in the United 
States. The Center's research scientists train and support students in 
their laboratories, out in the field, and through collaborations with 
fellow scientists at universities, institutions, and environmental 
agencies throughout the world.
    At the same time, the Center's scientists conduct basic and applied 
research on what has been called ``the marine web of life,'' ranging 
from microbes to mammals, and dealing with such subjects as 
environmental adaptation, the impact of biological toxins, the effects 
of nonnative creatures brought into the Bay from other parts of the 
world, and forces that threaten the globe's depleted fisheries. Over 
$4.5 million in federal and state grants are awarded to the scientists 
at RTC annually in support of this cutting-edge and globally relevant 
research.
    Some of the Center's research highlights include creating the first 
authoritative guide on wetland restoration; providing some of the first 
scientific testimony on the effects of freshwater diversion in the San 
Francisco Bay; conducting ground-breaking studies on how nutrients 
cycle through the oceans, affecting biological life and mediating the 
processes that lead to global warming; developing recommendations for 
oil spill cleanups now in use by U.S. Coast Guard and other agencies; 
and studying the long-term effects of farmland runoff (including 
agricultural toxins) on the San Francisco Bay.
    The research conducted at the Romberg Tiburon Center has 
contributed significantly to the existing body of knowledge on 
estuarine environments and has been published in a variety of highly 
prestigious scientific journals and texts. RTC is known throughout the 
national and international academic community as a major center for 
scientific research, much of which is applicable to coastal and 
estuarine systems worldwide, especially as the impact of human activity 
continues to increase.
    For the past 24 years, San Francisco State University and the 
National Marine Fisheries Service have worked together on this 34-acre, 
bayside site. The Romberg Tiburon Center occupies 23 acres of this 
parcel, a site that was conveyed to the University through a public 
benefit conveyance in 1978 for use as an environmental research 
station. The National Marine Fisheries Service occupied the remaining 
11 acres from 1970 until just last year, when the agency relocated to 
Santa Cruz, California. All of the parcels comprising this property are 
interlocked, as you can see from the maps provided, so for the past 25 
years NOAA and RTC have shared access to roads, parking, and the boat 
launch. Additionally, after the National Marine Fisheries Service 
relocated to another site, RTC applied for a lease permit from NOAA to 
utilize that property until the federal excess property disposal 
process was triggered. The Center received that permit in October 2001.
    Let me now give a brief history of the site: It first came into use 
in 1877, when a packing plant to dry, process and ship codfish was 
constructed there. In 1904, the Navy purchased the property for use as 
a Navy ship coaling station. During construction of the Golden Gate 
Bridge in the 1930's, the Roebling's Sons Company used the north 
warehouse to reel cables for the bridge.
    From 1931 to 1940, the Navy loaned the base to the state of 
California, which established its first nautical training school (later 
to become the California Maritime Academy). With the outbreak of World 
War II, the U.S. Government re-appropriated the site for use by the 
Navy, and the Maritime Academy relocated to its present site near 
Vallejo.
    During World War II, the Tiburon facility was used for the 
construction of anti-submarine and anti-torpedo nets. This Navy Net 
Depot was active until 1958, when its operation was terminated and the 
property was transferred from the Navy to the Department of Commerce. 
In the 1960's, the property became the National Marine Fisheries 
Service's Southwest Fisheries Center, and in 1973, NMFS consolidated 
its operations to 11 acres of the parcel. In 1977, San Francisco State 
University submitted a proposal to develop a field station and marine 
laboratory dedicated to the study of San Francisco Bay, and the 
following year, the Romberg Tiburon Center was established on the 
remaining 23 acres.
    I would like to emphasize how much the University has enjoyed and 
benefitted from our relationship with NOAA and the National Marine 
Fisheries Service. Our organizations have operated with a shared 
purpose to improve the life of the San Francisco Bay through research 
and education, and have complemented each other's mission throughout 
the years. We have had an excellent experience in working together, and 
we fully expect to continue collaborating with these agencies long into 
the future.
    This conveyance will support the mission of the Romberg Tiburon 
Center in many ways. First and foremost, the Center is committed to 
environmentally preserving and restoring the site, as it is one of the 
few remaining bay front sites. RTC is dedicated to working on-site as a 
keeper of the health and educator for the understanding of the bay.
    Because this site has been used for marine research purposes since 
1961, we feel that it is wholly appropriate for San Francisco State 
University to maintain that proud tradition. The Romberg Tiburon Center 
has developed a long-term Vision Plan to enhance its educational and 
research programs. Use of the additional property would provide 
critically needed research and educational space, and would provide 
opportunities for more on-site training, research and collaborations 
with other agencies and organizations. Because the National Marine 
Fisheries Service had been using its buildings for research on fish and 
other marine-related topics, the Romberg Tiburon Center is able to make 
use of those buildings in their current configuration for our research 
and teaching. All of the proposed activities in the Vision Plan are a 
realization of the goals consistent with our current mission and are 
compatible with NOAA's continued access to, and use of, their retained 
property, building 86. Initial uses of the property will include live 
animal aquaria and ship operations
    Another long-term--and very exciting--commitment that RTC is making 
to research on the Bay is the pending designation of the San Francisco 
Bay National Estuarine Research Reserve. (NERR) This federal-state 
partnership, administered by NOAA, involves eight state and local 
agencies, including the California State Lands Commission, Department 
of Water Resources, California Department of Parks and Recreation, East 
Bay Regional Parks District, Coastal Commission, BCDC, the Solano Land 
Trust, and Rush Ranch. The mission of the NERR is preserving bay front 
and waterfront natural lands that present research opportunities. Thus, 
the establishment of the San Francisco Bay NERR will not only 
coordinate bay research, but will enable us to attract further research 
money. It will promote partnership activities among these agencies in 
their efforts to restore degraded habitats, manage resources 
effectively, and increase public knowledge and good stewardship of 
these waters. The Romberg Tiburon Center will be the headquarters for 
this National Estuarine Research Reserve, working closely with three 
other sites in Marin and Contra Costa Counties. The San Francisco Bay 
NERR will have several educational and research staff, so additional 
space is needed to accommodate this program. This Research Reserve is 
likely to be designated by NOAA in late 2002 or early 2003.
    To answer the remainder of the committee's specific questions, I am 
attaching a fuller history of the Tiburon site, which details all of 
the previous owners of the property and their uses of the site. As you 
can see, the federal government has been the landlord since 1904, and 
to our knowledge there are no title disputes concerning the 11-acre 
NOAA parcels. With respect to encumbrances or liabilities associated 
with the NMFS parcels, it is my understanding that NOAA has drafted a 
preliminary surplus property report which states that there are no 
known major hazardous or toxic materials or waste sites on the 
property. I am attaching a copy of this document, which is titled 
``Final phase II Environmental Site Assessment Report.'' It was 
prepared for NOAA by Tetra Tech, EM, Inc., in August 2001.
    Once again, I thank you, Mr. Chairman and members of the 
Subcommittee, for giving consideration to this important legislation 
that will greatly enhance the activities of the Romberg Tiburon Center, 
and in turn the health of the San Francisco Bay and other vital marine 
environments worldwide.

          List of Romberg Tiburon Center partner organizations

    Bodega Marine Laboratory
    California Institute of Technology
    California State University, Long Beach
    Monterey Bay Aquarium Research Institute
    Moss Landing Marine Laboratory
    National Aeronautics and Space Administration
    Naval Postgraduate School
    NOAA/Pacific Marine Environmental Lab
    Point Reyes Bird Observatory
    San Francisco Estuary Institute
    Scripps Institute of Oceanography
    Stanford University
    University of California, Davis
    University of California, Los Angeles
    University of California, Santa Cruz
    University of Georgia
    University of Southern California
    University of Washington
    University of Wisconsin, Oshkosh
    US Geological Survey, Menlo Park
    Woods Hole Oceanographic Institution
                                 ______
                                 
    Mr. Saxton. I don't know that we have any questions. This 
seems to be a move that is very desirable and we are quite 
familiar with the kinds of activities that you do, because all 
of us sitting up here have been part of the process to create 
the NERR on the east coast in my district, the Jacques Cousteau 
National Estuary Research Reserve. And I am going there to meet 
Mrs. Cousteau again and have a reunion of sorts, I suppose. So 
I don't have any questions and we thank you for coming all the 
way from San Francisco to share your thoughts with us and we 
will proceed accordingly.
    [Whereupon, at 10:55 a.m., the Subcommittee was adjourned.]


</pre></body></html>
